OFFICE OF INSPECTOR GENERAL


Audit of USAID/Rwanda’s
Implementation of the President’s
Emergency Plan for AIDS Relief


AUDIT REPORT NO. 4-696-05-005-P
JUNE 10, 2005




SOUTH AFRICA, PRETORIA
Office of Inspector General




      June 10, 2005

      MEMORANDUM

      TO:                       USAID/Rwanda Acting Mission Director, Andrew Karas

      FROM:                     Regional Inspector General/Pretoria, Jay Rollins /s/

      SUBJECT:                  Audit of USAID/Rwanda’s Implementation of the President’s
                                Emergency Plan for AIDS Relief (Report No. 4-696-05-005-P)

        This memorandum transmits our report on the subject audit. In finalizing this report, we
        considered management comments on the draft report and have included those
        comments, in their entirety, as Appendix II.

        This report has three recommendations. In response to the draft report, USAID/Rwanda
        accepted all three recommendations and included corrective action plans and target
        completion dates. Therefore, we consider that management decisions have been
        reached for Recommendation Nos. 1 through 3. Please provide the Bureau for
        Management, Office of Management Planning and Innovation with evidence of final
        action in order to close the recommendations.

        In addition to the above, we have issued a separate management memorandum to the
        Mission.

        I appreciate the cooperation and courtesy extended to my staff.




U. S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 2

Audit Objectives................................................................................................................ 3

Audit Findings ................................................................................................................... 4

How has USAID/Rwanda participated in the President's
Emergency Plan for AIDS Relief activities? ....................................................................... 4

Did USAID/Rwanda's HIV/AIDS activities progress as expected towards
planned outputs in their grants, cooperative agreements and contracts?........................... 6

    Partners Forums Would Facilitate an
    Efficient Accomplishment of Targets .......................................................................... 11

    USAID/Rwanda's Emergency Plan Activity
    Managers Should Document Their Site Visits............................................................ 12

Are USAID/Rwanda’s HIV/AIDS activities contributing to the overall
U.S. Government’s Emergency Plan Targets .................................................................. 13

    The Quality of the Quantitative Data Provided by
    Emergency Plan Partners Should Be Assessed ........................................................ 16

Evaluation of Management Comments ........................................................................ 18

Appendix I – Scope and Methodology ......................................................................... 19

Appendix II – Management Comments ........................................................................ 20

Appendix III – Emergency Plan Program Areas .......................................................... 27

Appendix IV – List of Acronyms .....................................................................................28
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria conducted this audit as part of a worldwide
effort to review USAID’s participation in the Presidents Emergency Plan for AIDS Relief.
The objectives of this audit were to determine (1) how USAID/Rwanda participated in the
President’s Emergency Plan for AIDS Relief activities, (2) whether USAID/Rwanda's
HIV/AIDS activities progressed as expected towards planned outputs in their
agreements and contracts, and (3) whether USAID/Rwanda's HIV/AIDS activities
contributed to the overall U.S. Government's Emergency Plan targets. (See page 3.)

As a result of our audit, we concluded that USAID/Rwanda has a principal role in the
President’s Emergency Plan for AIDS Relief activities in Rwanda for HIV/AIDS
prevention and care, as well as a major supporting role for HIV/AIDS treatment; its
partners were progressing as expected towards meeting planned outputs in their
agreements; and USAID/Rwanda’s HIV/AIDS activities are contributing significantly to
the overall U.S. Government’s Emergency Plan care and treatment targets for fiscal year
2004. (See pages 4, 6, and 13.)

The audit has also determined some areas in which USAID/Rwanda could improve in its
Emergency Plan activities. Accordingly, this report includes recommendations that
USAID/Rwanda (1) coordinate periodic forums of all Emergency Plan partners for
exchanging ideas and learning from each other’s experiences, (2) direct its Emergency
Plan team to develop Mission-specific procedures requiring that partner site visits be
documented and maintained in activity managers’ files, and (3) assess the quality of the
quantitative data provided by its implementing partners and document the assessment.
(See pages 12, 13, and 17.)




                                                                                      1
BACKGROUND
Congress enacted legislation to fight HIV/AIDS internationally through the President’s
Emergency Plan for AIDS Relief (Emergency Plan). The $15 billion, 5-year program
provides $9 billion in new funding to speed up prevention, care and treatment services in
15 focus countries1. The Emergency Plan also devotes $5 billion over 5 years to
bilateral programs in more than 100 countries and increases the U.S. pledge to the
Global Fund2 by $1 billion over 5 years. The fiscal year 2004 budget for the Emergency
Plan totals $2.4 billion. Of this amount, $28 million is being used primarily in support for
the rapid scale up of integrated prevention, care and treatment programs in Rwanda,
one of the 15 focus countries.

Rwanda has a population of 8.1 million people, of which 250,000 (of the population
between 0-49 years old) are infected with HIV. UNAIDS estimates a 5.1 percent
prevalence rate for adults 15-49 years old. Rwanda is one of the least urbanized
countries in Africa, with 83 percent of its population residing in rural areas. Its recent
history was marked significantly by the 1994 genocide, which has created an
environment conducive to a more rapid spread of HIV/AIDS through mass migrations,
systematic rape, prostitution, and the rapid growth of prison and refugee camp
populations.      Additionally, a large number of widows and orphans from the 1994
genocide are among those in Rwanda’s population most vulnerable to HIV/AIDS.

The U.S. President and Congress have set aggressive goals for addressing the
worldwide HIV/AIDS pandemic. The worldwide goal over 5 years is to provide treatment
to 2 million HIV-infected people, prevent 7 million HIV infections and provide care to 10
million people infected and affected by HIV/AIDS, including patients and orphans (The
Emergency Plan’s 2-7-10 Goal). The Department of State’s Office of the Global AIDS
Coordinator (O/GAC)—which coordinates the U.S. Government’s (USG) fight against
HIV/AIDS internationally—divided these Emergency Plan targets among the 15 focus
countries and allowed each country to determine its own methodology for achieving its
portion of the assigned targets by the end of 5 years. The U.S. Government mission in
Rwanda (Emergency Plan Team) committed to:

       •   providing 50,000 people with antiretroviral (ARV) treatment,

       •   preventing 158,000 new HIV infections, and

       •   providing care and support to 250,000 people affected by HIV/AIDS, including
           orphans and vulnerable children.

The Emergency Plan is directed by the Global AIDS Coordinator and implemented
collaboratively by country teams made up of staff from USAID, the Department of State,
the Department of Health and Human Services, and other U.S. Government agencies.
Within USAID, the Bureau for Global Health has general responsibility for USAID’s

1
 The focus countries include Botswana, Ethiopia, Guyana, Haiti, Ivory Coast, Kenya, Mozambique,
Namibia, Nigeria, Rwanda, South Africa, Tanzania, Uganda, Vietnam, and Zambia.
2
    The Global Fund is a public-private partnership that raises money to fight AIDS, tuberculosis and malaria.


                                                                                                            2
participation in the Emergency Plan. More specifically, the Director of Global Health’s
Office of HIV/AIDS provides the technical leadership for USAID’s HIV/AIDS programs.

Below is a map of Rwanda and adjoining countries.




Source: http://www.ictr.org/maprwanda.htm

AUDIT OBJECTIVES
This audit was conducted as part of the Office of Inspector General’s fiscal year 2005
annual audit plan to conduct a series of worldwide audits of USAID’s implementation of
the President’s Emergency Plan for AIDS Relief.

The audit was conducted to answer the following questions:

•   How has USAID/Rwanda participated in the President’s Emergency Plan for AIDS
    Relief activities?

•   Did USAID/Rwanda’s HIV/AIDS activities progress as expected towards planned
    outputs in their grants, cooperative agreements and contracts?


•   Are USAID/Rwanda‘s HIV/AIDS activities contributing to the overall            U.S.
    Government’s Emergency Plan targets?

Appendix I contains a discussion of the audit’s scope and methodology.


                                                                                     3
AUDIT FINDINGS
How has USAID/Rwanda participated in                                          the     President’s
Emergency Plan for AIDS Relief activities?
USAID/Rwanda has the primary role in the Emergency Plan Activities in Rwanda for
prevention and care, and a major supporting role for HIV/AIDS treatment.

Prevention

USAID/Rwanda participates in three prevention programs of the Office of the Global
AIDS Coordinator (O/GAC): Prevention of Mother-to-Child Transmission (PMTCT),
Abstinence/Be Faithful (AB), and Other Prevention Activities in Rwanda. (See Appendix
III for the list of all the Emergency Plan prevention program areas.)

Prevention of Mother-to-Child Transmission (PMTCT) - Over 90 percent of pregnant
women in Rwanda receives antenatal care. This has provided an exceptional
opportunity to reach a significant number of pregnant women for the PMTCT initiative.
USAID/Rwanda and its partners have taken this opportunity to provide pregnant women
with counseling and testing, provide Nevirapine3 to the HIV-positive expectant mothers,
and provide support and follow-up to the babies born to HIV-positive mothers.

USAID and its partners have participated further in PMTCT by (1) training health care
providers in PMTCT, (2) conducting ongoing renovations and equipment purchases to
improve the quality of HIV testing, (3) conducting intensive research on nutrition and
infant feeding in the PMTCT context, and (4) providing a preliminary communication
strategy for PMTCT community outreach.

Abstinence/Be Faithful (AB) - According to the 2000 demographic health survey
conducted by the Government of Rwanda, the median age of the first sexual encounter
for women and men in Rwanda between the ages of 25 and 49 was 20.8 and 21 years
old, respectively. This is a relatively high age of sexual debut, which provides the
opportunity to have an effective HIV/AIDS prevention through AB message for youth.
Accordingly, USAID/Rwanda and its partners are working with churches and religious
leaders—assisting them in their AB activities for youth, supporting youth peer education
programs, and training new youth peer educators to provide HIV/AIDS education.

In the wider community, USAID/Rwanda and its partners have organized public
dialogues on AB and supported premarital couple counseling programs through
churches.

Other prevention initiatives - The high-risk groups in Rwanda are generally comprised
of recently released prisoners, commercial sex workers, discordant couples (couples
where one person is HIV positive and the other is HIV negative), and the military. There
is a prevention strategy aimed at these high-risk groups through prevention and
education campaigns and how to prevent transmission through correct condom use.

3
  Nevirapine is a common drug used for the prevention of mother-to-child transmission of HIV. It remains
the cheapest and most available method for this purpose in most countries.


                                                                                                       4
Care

USAID/Rwanda has the primary role in the Emergency Plan’s care programs of
voluntary counseling and testing (VCT), palliative care, and care for orphans and
vulnerable children (OVC). (See Appendix III for a list of all the Emergency Plan care
program areas.)

Voluntary counseling and testing (VCT) - Entry into care or treatment for people living
with HIV/AIDS (PLWHA) begins with a diagnosis of the HIV infection. Therefore,
counseling and testing is vital for beginning all care and treatment activities. In addition,
unlike other African countries where intense promotional efforts are required to
encourage the use of VCT services, demand in Rwanda exceeds capacity at most of the
VCT centers. To meet this demand, USAID/Rwanda partners have taken measures
which include scaling up the number of VCT service outlets and the number of clients
receiving VCT. They provide training for VCT counselors and for lab technicians in rapid
HIV testing. They have tested individuals through counseling and testing (C&T),
Couples’ C&T services, and mobile VCT units for the public as well as for the military.
They have also established partnerships with local organizations, such as the Rwandan
Scouts’ Association, for the establishment of new VCT youth centers and have collected
and revised national guidelines on VCT and VCT training manuals.

The Government of Rwanda service delivery model is to integrate PMTCT and VCT at
the site level. Accordingly, in their PMTCT programs, USAID partners provide
counseling and testing for pregnant women (as described in the PMTCT section of this
report) as well as for their partners.

Palliative care - The Emergency Plan defines palliative care as the full range of care
services from the time of diagnosis of HIV infection until death. These services include
routine monitoring of disease progression and prophylaxis; treatment of opportunistic
infections, tuberculosis, and other AIDS-related diseases; symptom management; social
and emotional support; and compassionate end-of-life care.

USAID/Rwanda’s palliative care initiative utilizes case managers and community
volunteers in reaching bedridden PLWHA through home visits. Accordingly, PLWHA
association members have been trained in home-based care, ARVs (antiretroviral) and
tuberculosis, and provided with home-based care kits.

PLWHAs have special need for nutrition to withstand the disease as well as the effects
of ARV’s. As part of its palliative care initiative, USAID/Rwanda is assisting the
Government of Rwanda in drafting a national guideline on nutritional care and support
for PLWHA, and in training HIV/AIDS health workers on the nutritional needs of
PLWHAs.

Care for orphans and vulnerable children - One of the results of the 1994 genocide,
and to a lesser degree the 1997 insurgency activities, is a crisis of orphans and child-
headed households. Despite the time that has elapsed, the number of orphans and
child-headed households in Rwanda continues to increase. This increase is attributed to
HIV/AIDS. UNICEF reports estimate that there are over 610,000 orphans living in
Rwanda, which is 18 percent of all children ages 0-14. Of these orphaned children,
approximately 43 percent are orphaned as a result of HIV/AIDS.


                                                                                           5
A number of donor agencies are participating in efforts to alleviate this crisis.
USAID/Rwanda, through the Emergency Plan activity, is working to:

      •   improve the nutrition status of OVCs,

      •   facilitate access to health services for OVCs, and

      •   provide guidance on hygiene practices, civic education, sexually transmitted
          infections and other life skill components. They provide packages that include
          school fees, adult mentoring, vocational training, nutritional support and income-
          generating activities.

Treatment

USAID/Rwanda is playing a major supporting role in administering the Emergency Plan
treatment programs of providing antiretroviral (ARV) drugs and ARV services and
contributing to laboratory infrastructure support.

ARV drugs - USAID has provided technical assistance to Centrale d'Achat de
Médicaments Essentiels du Rwanda (CAMERWA), the national drug-procurement entity,
in improving commodity forecasting, procurement procedures, storage and distribution,
quantification of pharmaceutical needs, quality assurance and internal quality control
systems, and physical infrastructure and information systems. USAID/Rwanda is also
assisting CAMERWA in launching a multi-donor drug procurement initiative.

ARV services - USAID/Rwanda and its partners participated in this initiative by assisting
in the scaling up of existing ARV service sites that provide antiretroviral therapy (ART),
launching new district hospitals that deliver ARV, and training personnel in ART.

Laboratory infrastructure support - USAID/Rwanda is contributing to this initiative by
identifying and assessing all existing laboratory policies and procedures, conducting
training, and supporting lab infrastructure by procuring lab equipment and renovating
laboratory facilities.

Did USAID/Rwanda's HIV/AIDS activities progress as expected
towards planned outputs in their grants, cooperative
agreements and contracts?

Significant portions of FY 2004 Emergency Plan funds were not received on time. As a
result, USAID/Rwanda partners received extensions to meet their targets. Based on
these new deadlines, and the achievement data provided by the partners, we found that
USAID/Rwanda’s HIV/AIDS activities were progressing as expected towards meeting
planned outputs in their cooperative agreements.4




4
    All USAID/Rwanda partners are under cooperative agreements.


                                                                                          6
Prevention

USAID/Rwanda’s partners have achieved significant results in the O/GAC prevention
categories of Prevention of Mother-to-Child Transmission of HIV (PMTCT),
Abstinence/Be Faithful (AB), and Other Prevention Activities. They have achieved their
intended outputs, or are expected to achieve them, before the extended deadlines.

Prevention of Mother-to-Child Transmission (PMTCT) - As of January 31, 2005,
Family Health International (FHI), a USAID/Rwanda partner, had established 21 PMTCT
service outlets, provided PMTCT services to 7,965 women, and provided ARV
prophylaxis for PMTCT to 80 percent of HIV-positive mothers-to-be. As of December
31, 2004, Elizabeth Glaser Pediatric Aids Foundation (EGPAF), another USAID/Rwanda
partner, had provided antenatal care and HIV counseling to 15,030 women and provided
ARV prophylaxis to 1,728 mothers-to-be. All these accomplishments were beyond the
intended outputs of each of the above partners.

Abstinence/Be Faithful - FHI has met its output goal of supporting 9 premarital couple
counseling programs through Catholic Churches nationwide; 91 pastoral agents were
trained to provide HIV education and a total of 6 youth peer education programs were
also supported. We visited one of these youth peer education programs in Kabgayi
Diocese in Gitarama province. It was explained to us that the program is focused on
Abstinence and Behavioral Change Communication (BCC), which is aimed at reducing
young people’s risk of HIV and sexually transmitted diseases (STD). The project
focused on two categories of youth: out-of-school rural youth between the ages of 15
and 25 and in-school youth at school and on vacation. The Diocese invites parents,
mayors, community leaders and parish representatives from Gitarama Province to a
community meeting to inform everyone about the HIV/AIDS epidemic and asks for their
support and collaboration on the BCC project.

World Relief, another USAID/Rwanda partner, has organized a mass sensitization
program, and in one particular event educated 3,810 individuals about AIDS and
mobilized them to pursue abstinence and care for those infected.

Other prevention initiatives - Population Services International (PSI), a
USAID/Rwanda partner, had an integrated campaign of multimedia behavioral change
communication to reduce the incidence of HIV in the military. An informational video for
use in military camps with a mobile video unit is now in use to educate the target
population. Trained military peer educators conduct interpersonal communication
sessions throughout Rwanda. We visited military brigade peer educators training in
HIV/AIDS in the town of Gisenyi in western Rwanda.




                                                                                      7
                                                         Photograph taken in February 2005 by
                                                         a RIG/Pretoria auditor of Rwandan
                                                         military peer educators receiving
                                                         training on HIV/AIDS in Gisenyi,
                                                         Rwanda.




Condoms are also part of HIV/AIDS prevention in Rwanda. In this category, JSI/Deliver,
a USAID/Rwanda partner, had achieved its targets, including conducting a
comprehensive assessment of condom logistics system, identifying areas of
improvement, and beginning implementation of critical improvements to ensure
adequate supply and avoid stock-outs.

Care

USAID/Rwanda partners had achieved significant results in the O/GAC care categories
of voluntary counseling and testing (VCT), palliative care, and care for orphans and
vulnerable children (OVC).

Voluntary counseling and testing (VCT) – Prior to the launch of the Emergency Plan,
EGPAF had been providing PMTCT services. It has now added VCT services at its
existing PMTCT sites. As of December 31, 2004, a total of four service delivery points
for counseling and testing were established, and 4,031 clients who were counseled
agreed to get tested and received results. Renovations were also initiated at several
sites to provide adequate counseling rooms, waiting areas, and laboratory space. We
visited Kabusunzu Health Center in Kigali Ville, an EGPAF PMTCT center that provides
VCT. While there, we observed a counseling room that was renovated with particular
attention given to making sure that clients would not be required to exit the room in front
of other clients waiting to be counseled—especially clients who have just been
counseled about their positive results.

University Research Company’s Quality Assurance Project (QAP), another
USAID/Rwanda partner, provides assistance to PMTCT/VCT centers for improving their
operation and trains them on how to identify issues that could be improved—essentially
assisting the centers to eventually improve their processes on their own. We visited
Kabgayi Health Center in Gitarama, a PMTCT/VCT site QAP assists. We were told that
because of QAP promoting same-day HIV test results, 100 percent of the clients
received their test results.

Palliative care - In the fourth quarter of calendar year 2004, World Relief, through
USAID funds, trained 124 church-based volunteers in home-based care, mobilized and


                                                                                           8
trained 932 volunteers to provide church-based AIDS support in their communities, and
supported households affected by HIV/AIDS with the creation of income-generating
activities.

Food and Nutrition Technical Assistance (FANTA), another USAID/Rwanda partner, had
developed a national guideline for the nutritional care and support of PLWHA, a nutrition
training manual for health districts, and a wall chart to strengthen nutrition counseling for
PLWHA and ART clients in pharmacies and health facilities and through PLWHA
associations.

Care for orphans and vulnerable children - Catholic Relief Services (CRS), a
USAID/Rwanda partner, had met their number-of-OVCs-reached target by providing
care and support for 4,800 OVC’s. We visited a Catholic Church school in Busasamana,
Rwanda, that was supported by CRS and were greeted by approximately 8,000 OVCs.
Some of them were wearing the uniforms provided to them through the Emergency Plan
funds. They received these uniforms as part of a care package. We noticed that these
OVCs, even though they were wearing uniforms, did not have shoes. We suggested to
the CRS program manager that their care packages should include shoes. The CRS
program manager concurred and told us that shoes would be added to the OVC care
packages. He stated that a large number of the OVCs have to travel on foot every day
to attend this school, and shoes should have been included in the care packages.




                                                               Photograph taken in February 2005 by
                                                               a RIG/Pretoria auditor of orphans and
                                                               vulnerable children, in Busasamana,
                                                               Rwanda, wearing uniforms funded
                                                               through the Emergency Plan.




Treatment

ARV Drugs – USAID/Rwanda-supported projects can only procure drugs with a U.S
source and origin, and these drugs must be FDA-approved. Projects supported by the
Centers for Disease Control and Prevention (CDC) can only import FDA-approved
drugs. This means that USG/Rwanda5 and its partners are restricted from purchasing
generic drugs for ART patients. The available funds for drugs are spent buying more
expensive brand name drugs while there are cheaper generic alternatives. As a result,
there are fewer drugs for the ART programs in Rwanda. To remedy this situation, donor
agencies in Rwanda, including USG/Rwanda, are working together to implement the
drug Common Basket concept. Funds from the Emergency Plan initiative are used to
buy drugs that are not available in a generic World Health Organization pre-qualified

5
    USG/Rwanda is comprised of USAID, CDC, and Department of Defense.


                                                                                                  9
form, while funds coming from other donors such as the Global Fund can be used to
procure generic drugs approved by the WHO. This allows for the optimization of funds—
allocation of Emergency Plan funds for only branded drugs maximizes the overall use of
ARV funds.

In January 2005, a common order of ARVs was placed through CAMERWA by using
funds coming from all HIV/AIDS programs in Rwanda. However, there was no
regulatory system or Memorandum of Understanding in place to ensure the continuity of
this initiative. Management Sciences for Health (MSH), a USAID/Rwanda partner, has
started working on a proposal for a better articulation of the Common Basket, to be
discussed with USAID, the Government of Rwanda, and other partners.

ARV services - As of January 31, 2005, FHI had provided ARV services to 1,872 clients
through its ART sites. We were told by FHI that they would meet their target of providing
this service to 2,270 clients by March 31, 2005.




                                                                   Photograph        taken    by
                                                                   RIG/Pretoria auditor in
                                                                   February 2005 of the
                                                                   courtyard       of     Kabgai
                                                                   Hospital (a faith-based
                                                                   hospital     that    provides
                                                                   Antiretroviral Therapy)
                                                                   in Gitarama, Rwanda.




Our review of a document provided by one of the partners highlighted one of the
challenges they face, which is the fact that some PLWHA, though eligible, are denied
ARVs because of lack of food. The same document also referred to the importance of
interaction of food and ARV for successful treatment (some ARVs should be taken with
food). After the end of our fieldwork, the Rwanda Emergency Plan team provided us
with documents that reflected their recent efforts to provide food for ART patients. We
had also been informed by Government of Rwanda Health Care Officials that food aid to
ARV patients was finally being addressed by USAID/Rwanda.

Capacity Building and Sustainability - During our site visits and interviews of
USAID/Rwanda partners, we noticed that there was an effort to address the need for
capacity building and sustainability of the HIV/AIDS initiatives by USAID/Rwanda
partners. For instance, FHI, in all its Emergency Plan initiatives, generally promotes
capacity building by developing a sub-contracting mechanism for project implementation,
rather than intervening or providing service directly. They provide financial resources to
their local implementing partners and deploy technical and management expertise to
build and strengthen partners’ capacity.



                                                                                            10
CRS, as a measure for capacity building, ensures that their local implementing partners
have access to technology, have a financial system in place, and provides them with
training in needed areas. IntraHealth, another USAID/Rwanda partner, provides all the
technical leadership to Rwandan Nationals as a way of transferring skills to them in
order to sustain the programs themselves.

USAID/Rwanda and its partners have contributed significantly to the overall Emergency
Plan FY 2004 targets. However, there are conditions that need improvement in order to
accomplish their targets efficiently and fulfill their monitoring responsibilities.


Partners Forums Would Facilitate An
Efficient Accomplishment of Targets

 Summary:       Although not currently required by USAID, nine of the thirteen
 USAID/Rwanda partners informed us that there was a need for a periodic forum of
 the partners. Trade and professional forums are one of the more common activities
 for sharing ideas and new practices. However, because of understaffing and a
 preoccupation with the FY 2004 Country Operational Plan (COP 2004) reporting, the
 USAID/Rwanda Emergency Plan team had not promoted the use of forums for their
 Emergency Plan partners. As a result, partners might remain unaware of other
 partners’ challenges and accomplishments, as well as recent developments.


Although USAID does not currently require the use of partners forums, they constitute an
efficient means whereby professionals doing the same line of work can improve their
operations by periodically meeting to share ideas and experiences. We interviewed all
13 of the USAID/Rwanda Emergency Plan partners. One of the common concerns
presented to us—by 9 of the 13 partners—was the need for the partners to have a forum
in which they could share ideas and experiences, learn from each other, and compare
notes on their dealings with the Rwandan Government, as well as with other donor
agencies. In examining documents and discussing this issue with USAID/Rwanda
Emergency Plan officials, we found that there had been a few scattered meetings for
partners, mainly of the clinical implementers. However, there was no documented plan
for conducting partners forums on a regular basis.

This occurred because the USAID/Rwanda Emergency Plan team did not consider itself
to be sufficiently staffed to accomplish all the additional work associated with Emergency
Plan activities. In particular, the team was preoccupied with the reporting requirements
of COP 2004. As a result, there was a lack of organized assistance to the Emergency
Plan partners.

Due to the lack of regular forums, many of the partners indicated that they felt like they
were working in isolation. Because they were not meeting regularly with other partners,
they were not learning from each other’s experiences. In some instances, they were
making the same mistakes made by other partners. Also, they were concerned that they
might not be kept up-to-date with recent HIV/AIDS developments that apply to Rwanda.

USAID/Rwanda officials informed us that they recognized the value of partners forums
and that they had plans to organize an all-partners’ forum in the near future. However,


                                                                                       11
to help ensure that partners forums are planned on a regular basis, we are making the
following recommendation:

    Recommendation No. 1 – We recommend that USAID/Rwanda prepare a plan
    requiring periodic forums of all Emergency Plan partners to exchange ideas and
    learn from each other’s experiences.


USAID/Rwanda's Emergency Plan Activity
Managers Should Document Their Site Visits

Summary: As required by Automated Directives System (ADS) 303 and the CTO
Checklist, activity managers are responsible for documenting their significant actions with
recipients and for evaluating the recipients’ performance. The Mission’s Emergency Plan
activity managers have not been documenting their site visits to show their monitoring
efforts in accounting for the proper expenditure of USAID’s Emergency Plan funds. The
activity managers were not aware of this requirement, nor did their management require
the documentation. By not documenting site visits, USAID/Rwanda management may
not be assured that recipients are properly expending USAID’s Emergency Plan funds
and/or performing as needed to assure attainment of program objectives.


USAID/Rwanda’s Emergency Plan initiatives in FY 2004 were conducted through
cooperative agreements with USAID field support partners. The CTOs for these
agreements are located at USAID/Washington. The partners’ activities in Rwanda were
monitored by activity managers, who serve as representatives of these CTOs, and were
responsible for the monitoring duties that apply to CTOs. According to USAID’s ADS
303.3.4.c.1, CTO’s are responsible for monitoring and evaluating a recipient and its
performance during the award to facilitate the attainment of program objectives.
Required CTO actions include maintaining contact through site visits and liaison with the
recipient, and reviewing and analyzing performance and financial reports. These
responsibilities are further defined in the CTO Checklist found in USAID’s Guide Book
for Managers and Cognizant Technical Officers on Acquisition and Assistance
(November 1998). Among the responsibilities are:

     •     maintaining reasonable contact with the recipient to become aware of and
           gain an understanding of its problems and work schedules;

     •     documenting significant actions, conversations, etc., as they occur;

     •     establishing and maintaining a separate            file   for   documents   and
           correspondence pertaining to the contract; and

     •     monitoring funds closely on a regular basis.

The USAID/Rwanda Emergency Plan team has provided us with various documents that
describe site visits, some of them prior to the Emergency Plan initiatives, and some
general narratives of the partners’ activities. However, our review of these documents—
provided to us after the end of our fieldwork—and our reviews of the Mission’s activity

                                                                                        12
managers’ files found deficiencies with respect to documenting site visits. The Mission’s
activity managers were neither documenting nor maintaining files on the results of their
site visits with recipients, including their monitoring of funds.

There were three reasons why activity managers were not preparing and maintaining
documents related to their site visits: (1) the activity managers were not aware of this
responsibility, (2) there was severe understaffing at the Mission relative to the workload
during FY 2004, and (3) there was no Mission-specific procedure for the Emergency
Plan team requiring them to do so.

Because site visits with the Mission’s recipients have not been documented and
maintained in files, it is difficult for the Mission to account for its monitoring of USAID
funds and site visit results. Without such documentation, it is difficult for the Mission
managers to evaluate the recipients’ performance during the award period and it may
also impact the Mission’s ability to ensure accountability of USAID funds. As a result,
there exists the possibility that USAID/Rwanda partners may not have been adequately
monitored by the activity managers.

The preparation of documentation and maintenance of site visit records are an important
internal control for ensuring that all of the Mission’s recipients are adequately monitored
and that USAID funds are being accounted for. The practice of activity managers
conducting site visits with recipients, without documenting any of their monitoring
activities, is of limited value and does not meet the intent of the ADS. Rather, having
documentation of site visits that is included in the activity manager’s files helps provide a
consistent basis for evaluating the effectiveness of a recipient’s program. Site visit
documentation is also important for continuity, especially when another activity manager
is assigned responsibility for the recipient’s program. In order to strengthen this
management control, and to provide the Mission with the full benefit of the activity
manager’s site visits, we are providing the following recommendation.

   Recommendation No. 2: We recommend that USAID/Rwanda’s Emergency Plan
   team develop Mission-specific procedures requiring that site visits of recipients be
   documented and maintained in activity managers’ files.


Are USAID/Rwanda’s HIV/AIDS activities contributing to the
overall U.S. Government’s Emergency Plan Targets?

O/GAC has issued a document as a guide for providing the information needed
regarding data collection and reporting for the Emergency Plan’s program monitoring
and evaluation, including outputs, outcomes, and impacts. O/GAC has also permitted
each country to operationally define this set of indicators for itself. USG/Rwanda took
advantage of this opportunity to create a commendable set of performance indicators,
which established more stringent criteria emphasizing comparability and quality of data.
As a result, in the FY 2004 Annual Progress report, USG/Rwanda had one of the lowest
achievements of OVC from all focus countries. The OVC targets, however, were on
track to be met by the extended deadline of March 31, 2005. Based on the indicator
achievements data reported by USAID/Rwanda partners as of September 30, 2004,
USAID/Rwanda’s HIV/AIDS activities of prevention, care and treatment contributed



                                                                                          13
significantly to USG/Rwanda’s Emergency Plan targets and ultimately to the overall U.S.
Government’s Emergency Plan Targets.

Prevention

O/GAC does not require reporting of infections averted by each focus country until 2010.
During the 5 years of the Emergency Plan, each focus country will have a number of
assessments at strategic intervals, estimating infections averted following those
assessments. As a result, USG/Rwanda has not provided us with the target numbers
achieved for new HIV infections averted. In the FY 2004 annual progress report that
was submitted to O/GAC, a number of prevention indicators were provided to gauge the
progress in the prevention initiative. O/GAC has used two of those indicators to
determine a portion of the infections averted in FY 2004. Described below are the two
indicators (direct USG/Rwanda6 accomplishments) and USAID/Rwanda’s contribution to
them.

        Prevention        USAID/Rwanda           Other              Total          USAID/Rwanda
         Indicator         Contribution       USG/Rwanda         USG/Rwanda         Contribution
                             9/30/04          Contribution       Contribution       as a Percent
                                                9/30/04            9/30/04            of Total


    Number of
    pregnant women
    who received                    30,304             18,970             49,274               62%
    PMTCT services

    Number of
    pregnant women
    receiving a
    complete course of
    antiretroviral                   2,296                509              2,805               82%
    prophylaxis in a
    PMTCT setting

USAID/Rwanda has contributed 62 percent of USG/Rwanda’s indicator
accomplishments for number of pregnant women who received PMTCT services and 82
percent of the number of pregnant women receiving a complete course of antiretroviral
prophylaxis in a PMTCT setting. O/GAC, in its first annual report to U.S. Congress, has
estimated that the USG/Rwanda accomplishments have averted 533 infant infections In
Rwanda.

Care

As the chart below of FY 2004 USG/Rwanda care target (direct support)
accomplishment shows, USAID/Rwanda’s HIV/AIDS activities contributed 68 percent of
USG/Rwanda’s palliative care target accomplishment, which includes care/basic health
care and tuberculosis care and treatment in an HIV palliative-care setting. Also,
USAID/Rwanda contributed to 100 percent of both OVC and VCT USG/Rwanda target
accomplishments.


6
    USG/Rwanda, for the FY 2004 indicator accomplishments, included results from USAID and CDC only.


                                                                                                  14
                        USAID/Rwanda       Other              Total        USAID/Rwanda
                         Contribution   USG/Rwanda         USG/Rwanda       Contribution
                           9/30/04      Contribution       Contribution     as a Percent
                                          9/30/04            9/30/04          of Total
 Number of HIV-
 infected individuals
 receiving palliative           9,899           4,561             14,460            68%
 care

 Number of OVCs
 being served by an               200                  -            200            100%
 OVC program

 Individuals
 receiving                     80,046                  -          80,046           100%
 counseling and
 testing

As stated earlier, the number of OVC reached is one of the lowest OVC target
accomplishments of all focus countries. This is because of the stringent indicator
requirement of USG/Rwanda. The number has increased significantly since September
30, 2004. The total projected USG/Rwanda achievement as of March 31, 2005 will be
20,350 OVCs reached. As described in the answer to objective two, CRS, a
USAID/Rwanda partner, has already reached 4,800 OVCs, well ahead of the March 31,
2005 deadline.

Treatment

As described in the chart below, USG/Rwanda has contributed to USG/Rwanda’s
treatment target by providing ART to 4,238 individuals, surpassing its own Year One
target by 238 individuals. USAID/Rwanda’s contribution, as indicated below, is 27
percent of the total USG/Rwanda target accomplishment.

                        USAID/Rwanda       Other              Total        USAID/Rwanda
                         Contribution   USG/Rwanda         USG/Rwanda       Contribution
                           9/30/04      Contribution       Contribution     as a Percent
                                          9/30/04            9/30/04          of Total

 Number of
 individuals with
 advanced HIV
 infection receiving            1,136           3,102              4,238            27%
 ART

USG/Rwanda’s treatment target at the end of the 5-year program is to provide ART to
50,000 individuals. The first-year target was to provide ART for 4,000 individuals. In
order to meet the eventual target, treatment targets need to be increased for the next 4
years. USAID/Rwanda and its partners are gearing up to contribute to this effort by
increasing their ART activities in their existing operations and adding new ART sites.

USAID/Rwanda’s success of its Emergency Plan programs is measured through the
data submitted by the USAID/Rwanda partners. However, there are conditions that



                                                                                      15
should be resolved in order to fully accept the indicator accomplishments as discussed
in the following problem area.

The Quality of the Quantitative Data Provided by
Emergency Plan Partners Should Be Assessed

 Summary: Data supporting the accomplishments of USAID/Rwanda’s Emergency
 Plan partners was reported by USG/Rwanda to O/GAC for FY 2004. However,
 USAID/Rwanda did not ensure that the quality of the data, including the data
 collection methodology, was assessed in accordance with ADS requirements. This
 occurred because USAID/Rwanda officials did not consider data quality assessments
 to be required or of a high priority. Lack of data quality assessments could lead to
 the reporting of Emergency Plan data that is flawed, resulting in management
 decisions being made based on potentially erroneous information.

As described earlier, USG/Rwanda has reported its Emergency Plan target
accomplishments to O/GAC for the FY 2004 Annual Progress report.                 The
accomplishment data was compiled by each USAID partner and provided to
USG/Rwanda personnel. However, USAID/Rwanda did not perform an assessment of
the quality of the data or ensure that the data collection methodology was accurately
done. For example, during site visits to Emergency Plan-funded health centers that
provided PMTCT and VCT services, we observed partners using a form provided by the
Treatment and Research AIDS Center (TRAC), a Government of Rwanda agency, to
compile results data. We noted instances where counseling done through PMTCT could
be counted through VCT as well—a potential double counting. Such were the types of
data quality issues that were not addressed through a data quality assessment.

ADS 203.3.5 requires that data quality assessments be performed for data reported
externally on Agency performance. It states that to be useful in managing for results and
credible for reporting, USAID Operating Units should ensure that the performance data,
both quantitative and qualitative, should meet five data-quality standards: validity,
integrity, precision, reliability and timeliness. In some cases, performance data will not
fully meet all five standards, and the known data limitations should be documented.
Data-quality assessments are needed to ensure that stakeholders are aware of the
strengths and weaknesses of the data as determined by applying the above five data-
quality standards. Stakeholders should then be made aware of the extent to which the
data integrity can be trusted to influence management decisions.

When Operating Units conduct quality assessments of data from secondary sources
(including implementing partners, government counterparts, and international agencies),
the Operating Unit should focus the assessment on the apparent accuracy and
consistency of the data. In many cases, Operating Units can compare central office
records and the records kept at field site(s). Operating Units should consider visiting a
broad range of sites to assess whether reports accurately reflect what occurs in the field.

The USAID Center for Development Information and Evaluation, through its
Performance Monitoring and Evaluation TIPS 12 (Guidance for Indicator and Data
Quality), expressly states that proper documentation and appropriate USAID/W review
should take place in a transparent and open manner.


                                                                                        16
The USAID/Rwanda Emergency Plan team did not ensure that data quality assessments
of partner reports were conducted because USAID/Rwanda officials did not consider
such assessments to be required. Further, due to staffing constraints, USAID/Rwanda
officials did not consider such assessments as being of a high priority.

USAID/Rwanda’s objective of contributing to the Emergency Plan’s vital goal of
achieving its 2-7-10 targets depends on the targets accomplished by each of its
partners. Not assuring that data provided from partners is accurate creates the
possibility that erroneous data will be submitted as part of the Emergency Plan target
accomplishments, upon which managerial decisions could be based. Accordingly, we
make the following recommendation:

   Recommendation No. 3: We recommend that USAID/Rwanda assess the quality
   of the quantitative data provided by its implementing partners and document the
   assessment.




                                                                                     17
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Rwanda accepted Recommendation Nos. 1
through 3 and provided corrective action plans and target completion dates. Therefore,
we consider that all three recommendations have received management decision upon
report issuance.




                                                                                   18
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General Office in Pretoria conducted this audit in accordance
with generally accepted government auditing standards. Fieldwork for this audit was
performed at the USAID Mission in Rwanda and various Emergency Plan sites within
Rwanda between February 14, 2005 and March 3, 2005. This audit was one of a series
of audits conducted by USAID’s Office of Inspector General. The audit was designed to
answer the following three questions: (1) How has USAID/Rwanda participated in the
President’s Emergency Plan for AIDS Relief activities? (2) Did USAID/Rwanda's
HIV/AIDS activities progress as expected towards planned outputs in their grants,
cooperative agreements and contracts? (3) Are USAID/Rwanda's HIV/AIDS activities
contributing to the overall U.S. Government's Emergency Plan targets? The scope also
included reviewing USAID/Rwanda’s role in the President’s Emergency Plan for AIDS
Relief and their contribution to the U.S. Government’s total effort to meet targets. In
conducting our audit, we assessed the effectiveness of USAID/Rwanda’s internal
controls with respect to consolidating reporting data to the U.S. Government annual
progress report of its activities through September 30, 2004. We reviewed internal
controls such as:

   • USAID/Rwanda’s process for monitoring its partners’ progress and reporting; and

   • USAID/Rwanda’s partners’ process for compiling regional data to its country-level
     reports.

Methodology
To answer audit objective one, we reviewed USAID/Rwanda’s Country Operational Plan,
interviewed activity managers and partners, and reviewed other pertinent
documentation. To answer audit objective two, we interviewed responsible Mission
officials and in-country partners, as well as reviewed quarterly progress reports to
determine progress towards outputs. To answer audit objective three, we reviewed the
Emergency Plan Team’s annual report and reported targets and compared these to
individual partner reports to determine their role in achieving these targets. Additionally,
we referred to published O/GAC reports and interviewed USAID officials in Washington,
D.C. We reviewed 13 Mission-maintained work plan files and progress reports of
implementing partners to compare planned outputs with progress. In addition, we
conducted site visits to partners and beneficiaries involved in prevention, care and
treatment, and observed facilities and operations.

A materiality threshold was not established for this audit since it was not considered to
be applicable given the qualitative nature of the audit objective, which focused on
USAID’s participation, progression and contribution towards the overall U.S.
Government's Emergency Plan targets.




                                                                                         19
                                                                                                APPENDIX II



   MANAGEMENT COMMENTS


                   U.S AGENCY FOR INTERNATIONAL DEVELOPMENT
                               U.S.A.I.D MISSION TO RWANDA
                                    _______________________________
UNITED STATES ADDRESS:                                                INTERNATIONAL POSTAL ADDRESS:
USAID/RWANDA                                                                  B.P:2848.KIGALI, RWANDA
DEPARTMENT OF STATE                                                        TEL: (250) 570939/570940/570941
2210 KIGALI PLACE                                                           TELEFAX: (250) 573950/574735
WASHINGTON, D.C. 20521                                                             E-mail: Kigali@usaid.gov




   MEMORANDUM
   May 31, 2005
   TO:               Regional Inspector General/Pretoria, Jay Rollins
   FROM:             USAID/Rwanda Acting Mission Director, James M. Anderson /s/
   RE:               Draft Report on Audit of USAID/Rwanda’s Implementation of the President’s
                     Emergency Plan for AIDS Relief (Report No. 4-696-05-XXX-P)



   This memorandum transmits USAID/Rwanda’s response to the Draft Report on Audit of
   USAID/Rwanda’s Implementation of the President’s Emergency Plan for AIDS Relief (Report No.
   4-696-05-XXX-P), as amended by your email of May 25, 2005.

   The amended Draft Report includes three recommendations. The attached response includes an
   action plan to accomplish the recommended actions, even though we disagree with many of the
   assertions and much of the analysis that supports the recommendations.

   We appreciate the courtesy and professionalism the audit team showed during its visit, and look
   forward to a continuing fruitful relationship.

   We request that our response be included in its entirety in the final report of the audit.


   US Agency for International Development
   55 Ave Paul VI,                         Tel. (250) 570940/41/42
   KIYOVU                                  Fax. (250) 573950/574735
   RWANDA                                  www.usaid-rwanda.rw




                                                                                                              20
                                                                                         APPENDIX II

                                            USAID/Rwanda
                                              Response to
                   “Draft Report on Audit of USAID/Rwanda’s Implementation of the
                             President’s Emergency Plan for AIDS Relief
                                    (Report No. 4-696-05-XXX-P)”

USAID/Rwanda appreciates the time and effort that the Regional Inspector General (RIG) staff
devoted to its review of work under the President’s Emergency Plan for AIDS Relief (the Emergency
Plan, or PEPFAR) in Rwanda, and in its preparation of its “Draft Report on Audit of
USAID/Rwanda’s Implementation of the President’s Emergency Plan for AIDS Relief (Report No. 4-
696-05-XXX-P)” (RIG Draft). The Emergency Plan is a technically, administratively, and
programmatically complex endeavor. It is implemented through a multi-agency program, with
USAID/Rwanda managing more than half of Emergency Plan expenditures in Rwanda.

We concur in the conclusions “that USAID/Rwanda has a principal role in the President’s Emergency
Plan for AIDS Relief activities in Rwanda for HIV/AIDS prevention and care, as well as a major
supporting role for HIV/AIDS treatment; its partners were progressing as expected toward meeting
planned outputs in their agreements; and USAID/Rwanda’s HIV/AIDS activities are contributing
significantly to the overall U.S. Government’s Emergency Plan care and treatment targets for fiscal
year 2004.”1 We appreciate the RIG’s recognition of effective implementation during the rapid initial
scale-up of Emergency Plan activities.

We, of course, do not claim perfection, and recognize that there are “some areas in which
USAID/Rwanda could improve in its Emergency Plan activities.”2 Even so, our view of the situation,
and our assessment of the most important changes we should make in our continual striving for
improved performance, is not entirely consistent with the RIG Draft.

RIG makes three recommendations: That USAID/Rwanda (1) “prepare a plan requiring periodic
forums of all Emergency Plan partners to exchange ideas and learn from each other’s experiences”3,
(2) “develop Mission-specific procedures requiring that site visits of recipients be documented and
maintained in activity managers’ files”4, and (3) “assess the quality of the data provided by its
implementing partners”5.6

Recommendation No. 1. We recommend that USAID/Rwanda prepare a plan requiring
periodic forums of all Emergency Plan partners to exchange ideas and learn from each other’s
experiences.7

We agree with the RIG observation that “Trade and professional forums are one of the more common
activities for sharing ideas and new practices.”8 The USAID/Rwanda PEPFAR team provides
abundant opportunities for implementing partners to meet with one another and with USAID staff.
There are periodic meetings of all implementers. This concept embraces two groups of “all
implementers”: All USAID implementers, across all SOs, and all PEPFAR implementers, across
USG agencies. In addition to these general meetings, PEPFAR partners meet periodically in a variety
of theme-related forums.



1
  Draft Report on Audit of USAID/Rwanda’s Implementation of the President’s Emergency Plan for AIDS
Relief (Report No. 4-696-05-XXX-P) (RIG Draft), p. 1, “Summary of Results”, repeated with only minor
changes at p. 6.
2
  RIG Draft, p. 1
3
  RIG Draft, p. 12
4
  RIG Draft, p. 13
5
  RIG Draft, p. 18
6
  The recommendations were articulated somewhat differently in the transmittal memorandum. The
original RIG Draft included four recommendations. By an email sent on May 25,2005, RIG amended the
RIG Draft to include only the three (renumbered) recommendations addressed here.
7
  RIG Draft, p. 12
8
  RIG Draft, p. 11                                                                                 21
                                                                                         APPENDIX II

We do not agree with, and the record will not support, the RIG assertion and conclusion that “the
USAID/Rwanda Emergency Plan team has not promoted forums of their Emergency Plan partners.
As a result, partners remain unaware of other partners’ challenges and accomplishments.”9 The
record (including voluminous documentation provided to RIG) demonstrates that our implementing
partners have had abundant opportunities to meet with USAID staff and one another to exchange
information.

USAID/Rwanda has a continuing series of meetings for all implementers. The most recent general
meeting was February 24, 2005. There were previous all-USAID meetings on September 24, 2004,
June 9, 2004 and Feb 26, 2004. All PEPFAR implementers met September 14, 2004 and again on
November 29, 2004. All PEPFAR implementers were invited to one of two sessions to discuss
Monitoring and Evaluation procedures in January 2005. Another all PEPFAR meeting was on March
24, 2005. There have been other meetings of all implementers related to preparation of semi-annual
progress reports and quarterly reports of information shared with the Government of Rwanda, and
smaller topic-specific meetings. Partner forums are not restricted to those funded by the USG. The
Government of Rwanda held a forum on March 4, 2005 for all partners in health, providing an
opportunity for partners funded by different donors to meet and exchange experiences.

Implementers meet in a variety of subgroups, with overlapping participation. All USAID Health
implementers met on March 1, 2004. PEPFAR Community Services partners met in August 2004.
PEPFAR VCT/PMTCT/ARV partners met on November 10, 2004. USAID PEPFAR clinical partners
met November 18, 2004, and again on December 16. There were a series of meetings specific to
ARV purchases. The Surveillance and Survey Working group met in February 2005.

In short, our implementing partners have had abundant opportunities to meet with USAID staff and
one another to exchange information. Just as important, there is also a record of a continuing
independent interest by our team in providing improved opportunities for information sharing. We,
obviously, plan to continue in this effort for improvement.

Even though there is no reasonable basis to say that our Cooperating Agencies have not had sufficient
opportunity to meet with us and each other, we will “prepare a plan requiring periodic forums of all
Emergency Plan partners to exchange ideas and learn from each other’s experiences.” This plan will
formalize an ongoing Mission and PEPFAR team practice, and will not disturb the achievement of
Emergency Plan targets. USAID/Rwanda will complete by July 30, 2005 an appropriate Mission
document setting out the plan for periodic forums of all USAID/Rwanda Emergency Plan partners.

Recommendation No. 2. We recommend that USAID/Rwanda’s Emergency plan team develop
Mission-specific procedures requiring that site visits of recipients be documented and
maintained in activity managers’ files.10

USAID/Rwanda accepts this recommendation and will develop procedures to include site visit
documentation in activity manager files. USAID/Rwanda will complete by July 30, 2005 an
appropriate Mission document setting out requirements for site visit documentation in activity
manager files. Even though the Mission accepts this recommendation, we must take issue with a
number of assertions and unwarranted conclusions in the RIG Draft.

This recommendation provides a particularly rich opportunity to discuss the relationship between
substantive performance, useful documentation, and formal compliance with Agency procedures.
From the beginning, the two-person technical staff found time for site visits. They made visits even
when they were occupied with complex inter-agency planning. The team members made site visits
while preparing the FY2004 and FY2005 Country Operational Plans and the 5-Year Country
Strategy. When new staff came on board, they were making site visits even while working on the
Annual Progress Report, submitted in early December 2004.

When the RIG team suggested that there had been insufficient site visits, the Mission provided
documentation showing literally dozens of site visits, and an offer to provide more documentation of

9
    RIG Draft, p. 11
10
    RIG Draft, p. 13                                                                                    22
                                                                                           APPENDIX II

additional visits if a question remained. There was no request for evidence of other visits, and the
draft recommendation is reduced to improved documentation of site visits.

Substantively, there clearly were sufficient visits to provide effective oversight. The RIG Draft
recognizes USAID/Rwanda contributions to Emergency Plan targets, and does not point to any
program deficiencies. The USAID Rwanda PEPFAR team made an extraordinary number of site
visits, especially given the other demands on their time. The program results show that they made
effective use of their time, with a sufficient number of site visits and other activity to effectively
manage a complex program. The results, best shown in program management and achievements,
reveal that the visits were sufficient.

While the RIG Draft recommendation to improve documentation of site visits is sensible, the
accusations associated with that recommendation warrant closer examination. A summary of the RIG
analysis contains four sentences. Each is flawed. To begin, the summary inaccurately asserts that
“As required by ADS … 303 and the CTO Checklist, activity managers are responsible for
documenting their significant actions ….”11 The RIG then incorrectly asserts that “activity managers
have not been documenting their site visits to show their monitoring efforts in accounting for the
proper expenditure of USAID’s Emergency Plan funds.”12 The summary incorrectly suggests that
that activity managers “were not aware of” a requirement to properly monitor activities “nor did their
manager require the documentation.”13 This leads to the plainly false conclusion that “As a result,
there is the possibility that the Mission’s Emergency Plan activity managers have not been adequately
monitoring their recipients during their visits.”14

Addressing the second statement first, contrary to the RIG Draft’s assertion, site visits have been
documented. Shortly after the RIG audit team indicated that they had questions about site visits, the
Mission provided records to show abundant site visits. The RIG Draft notes that the documents were
“provided to us after the end of our fieldwork”, as if they had been requested earlier. Documentation
of site visits was raised as an issue at the exit conference. The Mission provided documents promptly
after the audit team suggested that the documents would be useful.

The third sentence in the summary conflates multiple issues and is incorrect on two significant points.
The RIG Draft asserts that “activity managers were not aware of” a significant requirement, and that
“their manager” did not require it.15 Neither of these assertions is supportable. Where the RIG Draft
asserts that “activity managers were not aware of this requirement,”16 it refers back to “documenting
their site visits to show their monitoring efforts in accounting for proper expenditures”17. The
USAID/Rwanda team was keenly aware of the need to properly manage taxpayer funds to achieve
results under the Emergency Plan, and to suitably document the management effort. The record
clearly shows that activities were soundly managed, and there is sufficient documentation to show
sound management. Where there is sound management and sufficient documentation, it is not
sensible to claim that a manager did not require the documentation.

The allegation of ignorance and managerial deficiency seems to result from a failure to distinguish
among proper management, responsibility, and convenient documentation. The substantive
implementation has not been questioned, and has been praised. The formal responsibility for
documentation is discussed below, but is largely irrelevant. There clearly is sufficient documentation
to show proper management. The dominant issue seems to be documentation that is more
conveniently available for auditors. We recognize that this is significant, and agree to develop
procedures to include site visit documentation in activity manager files. We do not agree, though,
that the past arrangement of documentation constitutes a substantive or procedural deficiency of any
significance.


11
   RIG Draft, p. 12
12
   RIG Draft, p. 12
13
   RIG Draft, p. 12
14
   RIG Draft, p. 12
15
   RIG Draft, p. 12
16
   RIG Draft, p. 12
17
   RIG Draft, p. 12                                                                                       23
                                                                                         APPENDIX II

The assertion that activity managers’ records were inadequate follows an inaccurate description of
responsibilities. The RIG Draft inaccurately claims that “As required by ADS … 303 and the CTO
Checklist, activity managers are responsible for documenting their significant actions ….”18 ADS
303 and the CTO Checklist describe, of course, the responsibilities of CTOs, not “activity managers.”
The RIG Draft recognizes that USAID/Rwanda Emergency Plan activities for the audit period were
implemented through Field Support mechanisms, and that “The CTOs for these agreements are
located in USAID/Washington.”19 It is, of course, the Washington CTOs that have the responsibility
described in ADS 303.

The RIG Draft asserts, with no offer of authority or evidence, that local activity managers “serve as
representatives of these [Washington] CTOs and are responsible for the monitoring duties that apply
to CTOs.”20 This bare assertion in the RIG Draft does reflect Agency policy. There may be a formal
deficiency in Agency guidance, or in Agency use of Field Support mechanisms. Nonetheless, since
the deficiency alleged in the RIG Draft is purely formal, it requires a suitable formal foundation.
This is not an appropriate forum to discuss possible improvements of rules for record-keeping and
management of centrally-procured country-funded mechanisms. It is sufficient to note that the RIG
Draft identifies nothing that would shift CTO responsibility to country activity managers of Field
Support mechanisms. ADS 303 does not make that shift, and the RIG Draft does not identify
anything else that would have imposed those burdens. As discussed below, the record shows that the
activities were well-managed, and there is no suggestion that performance could have been improved
by more voluminous records.

Nothing in the RIG Draft, or elsewhere, supports a conclusion that “there is the possibility that the
Mission’s Emergency Plan activity managers have not been adequately monitoring their recipients
during their visits.”21 To the contrary, the RIG Draft recognizes that USAID/Rwanda implementing
partners “have contributed significantly to USG/Rwanda’s Emergency Plan targets and ultimately to
the overall U.S. Government’s Emergency Plan Targets.”22

We accept that it would be more useful for auditors if records were all included in a single file.
USAID/Rwanda will revise procedures so that copies of future site visit records will be included in
activity files.   Neither agency rules nor sound management, though, require this.             The
USAID/Rwanda Emergency Plan team made sufficient site visits, and had adequate documentation of
those visits. Even though we accept the recommendation to improve filing and documentation, we
deny the assertions that documentation was insufficient either for sound management, or for
compliance with Agency requirements. We appreciate the useful recommendation for improved
record-keeping, and will develop a suitable plan to implement it. USAID/Rwanda will complete by
July 30, 2005 an appropriate Mission document setting out requirements for site visit documentation
in activity manager files.

Recommendation No. 3. We recommend that USAID/Rwanda assess the quality of the data
provided by its implementing partners.23

The USAID/Rwanda Emergency Plan team agrees fully that “A data-collection methodology and
practice that is flawed will result in Emergency Plan target information that is erroneous.”24 This
observation, though, has no application to USAID/Rwanda. USAID/Rwanda, along with the rest of
the USG/Rwanda PEPFAR team, has demonstrated its commitment to useful, reliable data. OGAC
recognized that commitment at the “President's Emergency Plan for AIDS Relief Second Annual
Field Meeting, 2005” in Addis Ababa. Ambassador Tobias, on May 22, 2005, presented an award to
the USG/Rwanda PEPFAR team “in recognition of your advancement of strategic information
efforts”.


18
   RIG Draft, p. 12
19
   RIG Draft, p. 12
20
   RIG Draft, p. 12
21
   RIG Draft, p. 12
22
   RIG Draft, p. 14
23
   RIG Draft, p. 18
24
   RIG Draft, p. 17                                                                                     24
                                                                                           APPENDIX II

The OGAC award was the result of OGAC’s independent assessment, rather than an application. The
USG/Rwanda team was not aware of the assessment or consideration. Various U.S.-based members
of the Emergency Plan Country Team for Rwanda have made field visits. The visitors have included
the Strategic Information advisor for the country team, as well as others, who made site visits as well
as reviewing office records. In the face of this award, which reflects multiple visits over long
periods, by persons with a variety of technical backgrounds, a claim that data quality is somehow
deficient would require clear and convincing evidence. The evidence, though, all supports a
conclusion that USAID/Rwanda Emergency Plan data is of remarkably high quality.

The issue of formal data quality assessments (DQAs) is distinct from routine assessments of data to
ensure that the data is suitable for activity management.

Substantively, the USAID/Rwanda PEPFAR team has a continuing interest in data quality, apart from
formal DQAs. This interest is reflected in a number of actions. During the exit conference, Dr. Fitch
discussed her long experience in clinical practice and how that experience informs site visits,
including an assessment of patient volume. In December 2004, a two-person team conducted a DQA
of a peer education program. Notes on field visits specifically comment on data collection and record
keeping. A January 14, 2005 meeting for a Performance Needs Assessment includes explicit
discussion of data quality issues. The intensity of our interest is also shown in notes on a Feb 11,
2005 meeting that discussed facility-targeted data collection methods. The minutes of the Jan 13
meeting of the Rwanda PEPFAR Strategic Information Committee explicitly discusses DQAs.

Formally, the USAID/Rwanda PEPFAR team is fully aware of the ADS requirements for data quality
assessments (DQAs), has complied with requirements to date, and has active plans to meet the
requirements for DQAs in the future. Beyond the conduct of formal DQAs, the USAID/Rwanda
PEPFAR team has routinely monitored data reported by implementers to ensure that data is of
sufficient quality for program management.

The RIG Draft recognizes that “USG/Rwanda is aware that there needs to be an assessment of this
data.”25 The RIG Draft suggests, though, that there is an open question with respect to formal DQAs.
After recognizing that USAID/Rwanda is familiar with the ADS requirements for DQAs, the RIG
Draft goes on to say, though, that “with the assumption that it is not required at this time – they have
not conducted a data assessment.”26 This is not an “assumption”. The ADS requirement is very
clear, and very sensible. ADS 203.3.5.2 provides that DQAs are required only for data reported to
USAID/W for GPRA or for reporting externally on Agency performance. If the RIG believes that a
required DQA has not been performed, that belief should be clearly articulated and the source of the
requirement identified. More reasonably, the RIG should not characterize as an “assumption” what is
an obviously correct statement of ADS requirements.

The ADS makes a very sensible distinction between the requirements for formal DQAs and
substantive knowledge of data used for management. “Managers are not required to do data quality
assessments on all performance indicators that they use. Prudence suggests, however, that managers
should be aware of the strengths and weaknesses of all indicators.”27 To “be aware of the strengths
and weaknesses” of data is recognized as different from conducting formal DQAs.

The RIG Draft inaccurately states that “USG/Rwanda Emergency Plan officials have admitted to us
that a quantitative assessment of data provided by partners has not been performed.”28
USAID/Rwanda officials did not “admit” this; they declared it. Formal DQAs of partner reports are
not required by the ADS or any other authority.

The inaccurate statement regarding an alleged admission follows a statement that would be disturbing
if it were true. The RIG Draft reports that “Not assuring data provided from the partners is accurate
creates the possibility that erroneous data will be submitted as part of the Emergency Plan target


25
   RIG Draft, p. 17
26
   RIG Draft, p. 17
27
   ADS 203.3.5.2
28
   RIG Draft, p. 18                                                                                        25
                                                                                         APPENDIX II

achievement.”29 The RIG Draft provides no support for the proposition that USAID/Rwanda has not
assured that implementers provide accurate data. The RIG Draft ignores site visits by experienced
professionals, who have specifically stated their concern for assuring accurate reporting. The RIG
Draft concerns itself entirely with a perceived lack of documentation, but provides no evidence of a
requirement for the documentation or a substantive problem.

The RIG Draft persistently misstates the ADS requirements for DQAs. ADS 203.3.5.1 discusses data
quality broadly, and specifically addresses “performance data in the PMP for each SO.”30 The
following subsection31 sets out the mandatory DQA guidance, which applies to indicators reported to
USAID/Washington.

The RIG Draft, though, incorrectly asserts that ADS 203.53.5.1 addresses “performance data”
generally, and treats this as if it stated requirements for DQAs. The difference between “performance
data in the PMP” and “performance data” is important. Missions select (or design) indicators to be
included in the PMP, and select from among those for indicators to report to USAID/Washington.
Missions will, in every case, monitor a wide range of other performance data, including the
performance of individual activities. The individual activities might be aggregated to provide a PMP
indicator, or might contribute to Mission achievements more indirectly. There is not, and could not
sensibly be, an ADS requirement for formal DQAs of all “performance data.” The ADS requirement
for formal DQAs is specifically, and reasonably, limited to indicators reported to
USAID/Washington.

The RIG Draft erroneously asserts that “Data-quality assessments are needed to ensure that the
Operating Unit and Strategic Objective Team are aware of the strengths and weaknesses of the data
as determined by applying the above five data-quality standards and are aware of the extent to which
the data integrity can be trusted to influence management decisions.”32 This is inconsistent with ADS
statements, and is substantively untrue. There is an important distinction between the ADS statement
that the purpose of a formal DQA is to ensure awareness of data quality33, and the RIG Draft
assertion that a DQA is “needed”34 for awareness of data quality. Simply put, the formal DQA
documents awareness of data quality; documentation is important, but awareness can exist without
documentation. The ADS recognizes and accepts this distinction, noting that even when DQAs are
not required, “managers should be aware of the strengths and weaknesses of all indicators.”35

USAID/Rwanda has demonstrated its commitment to reliable data, and has had that commitment
recognized. USAID/Rwanda has also shown its commitment to meeting all requirements for
documenting data quality, including DQAs for indicators reported to USAID/Washington.
USAID/Rwanda appreciates the concern shown by the RIG audit team for improved documentation
of the quality of data provided by implementing partners. USAID/Rwanda will by October 30, 2005
assess the quality of the quantitative data provided by its implementing partners.




29
   RIG Draft, p. 18
30
   ADS 203.3.5.1
31
   ADS 203.3.5.2
32
   RIG Draft, p. 17
33
   ADS 203.3.5.2
34
   RIG Draft, p. 17
35
   ADS 203.3.5.2                                                                                        26
                                                          APPENDIX III




EMERGENCY PLAN PROGRAM AREAS
PREVENTION:

 •   Prevention of Mother-to-Child Transmission (PMTCT)
 •   Abstinence/Be Faithfulness (AB)
 •   Medical Transmission/Blood Safety
 •   Medical Transmission/Injection Safety
 •   Other Prevention Activities

CARE:

 •   Palliative Care: Basic Health Care and Support
 •   Palliative Care: TB/HIV
 •   Orphans and Vulnerable Children (OVC)
 •   Voluntary Counseling and Testing (VCT)

TREATMENT:

 •   HIV/AIDS Treatment/ARV Drugs
 •   HIV/AIDS Treatment/ARV Services
 •   Laboratory Infrastructure




                                                                    27
                                                                  APPENDIX IV


LIST OF ACRONYMS
ADS      Automated Directives System

AIDS     Acquired Immunodeficiency Syndrome

ART      Antiretroviral Therapy

ARV      Antiretroviral

CDC      Centers for Disease Control and Prevention

COP      Country operational plan

HIV      Human Immunodeficiency Virus

NGO      Non-Governmental Organization

O/GAC    Office of the U.S. Global AIDS Coordinator

OVC      Orphans and Vulnerable Children

PLWHA    People living with HIV/AIDS

PMTCT    Prevention of HIV/AIDS Mother-to-Child Transmission

USG      United States Government

VCT      Voluntary Counseling and Testing

2-7-10   The Emergency Plan goal of supporting treatment of 2 million people
         living with HIV/AIDS, preventing 7 million new HIV infections, and
         supporting and caring for 10 million people infected and affected by
         HIV/AIDS.




                                                                                28
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
